                 U.S. Department of Agriculture

                    Office of Inspector General
                                Midwest Region




       Audit Report

Implementation of Renewable
  Energy Programs at the
Agricultural Research Service




                     Report No. 02601-0002-Ch
                                     May 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:         May 13, 2008

REPLY TO
ATTN OF:      02601-0002-Ch

TO:           Edward B. Knipling
              Administrator
              Agricultural Research Service

FROM:         Robert W. Young        /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Implementation of Renewable Energy Programs at the Agricultural Research
              Service


This report presents the results of our audit of the agency’s renewable energy research efforts.
Our audit evaluated whether the agency was targeting its research to areas that would have the
most impact on the nation’s renewable energy needs and the process used to report renewable
energy activities to the Department.

The agency response to the official draft report is included as exhibit B, with excerpts and the
Office of Inspector General’s position incorporated into the Findings and Recommendations
section of the report. Based on the agency’s response, we have not reached management
decisions on the two recommendations presented in the report. The Findings and
Recommendations section of this report includes a description of the information needed to reach
management decisions for these recommendations.

In accordance with Departmental Regulation 1720-1, please provide a reply within 60 days,
which includes the timeframes for completing the corrective actions. Please note that the
regulation requires management decisions to be reached on all recommendations within a
maximum of 6 months from report issuance, and final action be taken within 1 year of each
management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Executive Summary
Implementation of Renewable Energy Programs at the Agricultural Research Service

Results in Brief    This report presents the results of our audit of the Agricultural Research
                    Service’s (ARS) efforts to support the development of domestic renewable
                    energy. Within the United States Department of Agriculture (USDA), ARS
                    is the primary agency responsible for conducting research projects. In recent
                    years, the rising cost and questionable availability of foreign oil has resulted
                    in numerous projects researching domestically available and sustainable
                    sources of renewable energy. In 1999, ARS initiated the Bioenergy and
                    Energy Alternatives National Program. It aimed to reduce dependence on
                    foreign oil by developing alternative energy sources such as biofuels. Ethanol
                    is the most common biofuel worldwide and domestically most ethanol is
                    produced from corn. More recently, attention has focused on the production
                    of ethanol from cellulosic biomass, which uses various organic source
                    materials such as grasses and woodchips that do not have other competing
                    uses as corn does. In February 2006, the President issued the Advanced
                    Energy Initiative (AEI), which gave researchers the task to “foster the
                    breakthrough technologies necessary to make cellulosic ethanol cost-
                    competitive with corn ethanol by 2012.”

                    Although in general we did not note problems with ARS’ administration of
                    renewable energy research, we did note that in some cases the agency’s
                    efforts were directed toward areas of questionable benefit. Since the inception
                    of the Bioenergy and Energy Alternatives National Program, ARS has
                    followed a 5-year cycle for its research projects. Although the agency reviews
                    its ongoing research projects on an annual basis, this review does not evaluate
                    the continued importance or relevance of ongoing research in terms of outside
                    factors such as changing economic conditions. As a result, some research
                    projects may be targeted toward areas that were considered high-priority at
                    the beginning of a cycle, but their results may have only limited impact by the
                    cycle’s end. In addition, research projects that continue for 5 years without
                    being re-evaluated may not address new priorities set by the Administration
                    or by Congress.

                    Specifically, our review of 7 of 29 ARS biofuels research projects disclosed
                    that 3 were targeted toward either process improvements or the identification
                    of saleable co-products to benefit the corn ethanol industry. These projects
                    had been initiated between 2000 and 2004, but outside economic factors
                    allowed the corn ethanol industry to expand and mature even without the
                    benefits of this currently ongoing research. This conclusion was also reached
                    by an independent panel of experts performing a retrospective review of
                    ARS’ Bioenergy and Energy Alternatives National Program in 2007. While
                    highly supportive of ARS’ biofuels research program overall, the reviewers
                    noted that because corn ethanol was now viable on its own, little or no public
USDA/OIG-A/02601-0002-Ch                                                                     Page i
                   funding for research was justified. We believe that ARS needs to implement
                   a process to evaluate its ongoing research projects during the course of their
                   5-year cycles, initiate changes as needed to ensure that the agency’s efforts
                   are targeted toward the most promising areas of research, and ensure that
                   projects address the concerns and priorities set out by the Administration and
                   by Congress.

                   In addition, ARS did not accurately report renewable energy activities related
                   to the AEI for fiscal year 2006 because agency officials did not base their
                   report on the revised guidelines for inclusion provided by the Office of
                   Budget and Program Analysis. As a result, an additional 26 potentially-
                   eligible research projects were not reported, and the $20.7 million in
                   renewable energy spending related to the AEI may need to be substantively
                   revised.

Recommendations
In Brief           We recommended that ARS officials establish a process to review all
                   research projects on a periodic basis to evaluate their continued relevancy and
                   productivity in terms of meeting Departmental and Administration energy
                   goals. We also recommended that ARS officials develop and implement
                   procedures for reporting renewable energy activities using the appropriate
                   guidelines, and for responding to future information requests in an adequate
                   manner.

Agency Response    In their response dated April 28, 2008, agency officials generally agreed with
                   the findings and recommendations contained in the report. We have
                   incorporated applicable portions of the ARS response, along with our
                   position, in the Findings and Recommendations section of the report. The
                   agency’s response is included in its entirety as exhibit B of the report.

OIG Position       Based on the response, we were unable to reach management decisions for
                   either of the report’s two recommendations. Management decisions can be
                   reached once we receive the information specified in the Findings and
                   Recommendations section under OIG Position of this report.




USDA/OIG-A/02601-0002-Ch                                                                  Page ii
Abbreviations Used in This Report

AEI               Advanced Energy Initiative
ARS               Agricultural Research Service
NPS               National Program Staff
OBPA              Office of Budget and Program Analysis
OIG               Office of Inspector General
OSQR              Office of Scientific Quality Review
USDA              United States Department of Agriculture




USDA/OIG-A/02601-0002-Ch                                    Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

        Finding 1             ARS Needs a Process to Evaluate the Continued Relevance of Its
                              Renewable Energy Research Projects ..................................................................... 3
                                 Recommendation 1 .......................................................................................... 8
        Finding 2             Renewable Energy Research Activities Misreported.............................................. 8
                                 Recommendation 2 .......................................................................................... 9

Scope and Methodology........................................................................................................................ 10

Exhibit A – AUDIT LOCATIONS VISITED AND PROJECTS REVIEWED.............................. 11

Exhibit B – AGENCY RESPONSE..................................................................................................... 12




USDA/OIG-A/02601-0002-Ch                                                                                                                Page iv
Background and Objectives
Background                             The Agricultural Research Service (ARS) conducts scientific research to
                                       develop, and to transfer to the public, solutions to agricultural issues of a high
                                       national priority such as renewable energy activities. It conducts research
                                       internally, with non-Federal entities through cooperative agreements, and
                                       with other Federal agencies through interagency agreements. ARS
                                       administers its programs through its national offices in Washington, D. C. and
                                       Beltsville, Maryland. The national office and 8 area offices provide direction
                                       and monitor ARS research activities at 12 research centers, 6 human nutrition
                                       centers, and 294 research units in 110 locations.

                                       The Bioenergy and Energy Alternatives National Program purpose is to
                                       (1) develop alternative energy sources through increased use of agricultural
                                       materials such as feedstocks for biofuels, (2) create jobs and economic
                                       activity in America, (3) reduce the nation's dependence on foreign oil, and
                                       (4) improve the environment. To assist in fulfilling this mission, the National
                                       Program Staff (NPS) develops an action plan at the beginning of each 5-year
                                       research cycle that addresses renewable energy research areas considered a
                                       high priority by agency managers. This process includes conducting a multi-
                                       day workshop with representatives from industry, academia, other United
                                       States Department of Agriculture (USDA) agencies, and Federal entities such
                                       as the Department of Energy.

                                       Once the priority research areas are identified, research personnel submit
                                       detailed project plans that contain projected accomplishments and yearly
                                       milestones to be completed. Final approval by the National Program Leader
                                       comes only after ARS’ Office of Scientific Quality Review (OSQR) reviews
                                       each proposed project for scientific quality and feasibility. The first 1 cycle
                                       research projects were implemented in 2004 and the second cycle projects
                                       will be implemented in 2009 and extend through 2014. However, new
                                       research projects can begin during the course of a cycle if new funding for
                                       them becomes available.

                                       In recent years, the rising costs and uncertain availability of foreign oil have
                                       led to an increased emphasis on bioenergy research to develop sustainable,
                                       domestic sources of renewable energy. In particular, the conversion of
                                       cellulosic biomass to ethanol is being heavily emphasized as a way to meet
                                       the nation’s energy needs. This emphasis has led to the passage of key
                                       legislation as well as Presidential initiatives, including:



1
    The first cycle began in 1999, with a stakeholder workshop.

USDA/OIG-A/02601-0002-Ch                                                                                         Page 1
                                          •     The Biomass Research and Development Act 2 of 2000 (Act), which
                                                provided guidance to Federal agencies conducting biofuel and
                                                biobased product research. The Act directed research agencies to
                                                develop: (1) technologies and processes necessary for commercial
                                                production of biofuel at prices competitive with fossil fuels, (2) high-
                                                value biobased products, and (3) a diversity of sustainable feedstocks
                                                for conversion to biofuel and biobased products. It also directed
                                                research and development toward developing technologies for
                                                converting cellulosic biomass into intermediates that can be converted
                                                into fuels;

                                          •     The Energy Policy Act 3 of 2005, which was the first Federal energy
                                                law to mandate utilization of renewable fuel goals to reduce the
                                                nation’s dependence on foreign oil. 4 USDA incorporated goals into its
                                                strategic plan mandating that ARS research support the development
                                                of new markets and products for agricultural materials, and facilitate
                                                the achievement of Presidential initiatives through the production of
                                                renewable energy; and

                                          •     The President’s Advanced Energy Initiative (AEI), 5 which called for
                                                emphasis on the breakthrough technologies needed to make cellulosic
                                                ethanol cost-competitive with corn-ethanol by 2012.

                                     In fiscal year 2006, ARS reported to the Office of Budget and Program
                                     Analysis (OBPA) that it had 29 ongoing research projects related to biofuels
                                     and renewable energy, with total funding of $20.7 million. ARS is currently
                                     planning for its next 5-year research cycle.

Objectives                           Our objective was to assess ARS’ actions related to renewable energy
                                     research. As part of this, we evaluated whether the agency was targeting its
                                     research to areas that would have the most impact on addressing the nation’s
                                     renewable energy needs. We also reviewed the agency’s compliance with
                                     renewable energy reporting requirements to OBPA.




2
  Title III of the Agriculture Risk Protection Act, Public Law 106-224, dated June 20, 2000.
3
  Dated January 4, 2005.
4
  This will be accomplished through the production of 7.5 billion gallons of renewable fuel by 2012. As of January 2008, the Energy Independence and
Security Act of 2007 requires fuel producers to use at least 36 billion gallons of biofuel by 2022.
5
  Issued in February 2006
USDA/OIG-A/02601-0002-Ch                                                                                                                      Page 2
Findings and Recommendations
Finding 1          ARS Needs a Process to Evaluate the Continued Relevance of Its
                   Renewable Energy Research Projects

                   We found that three of the seven ARS research projects we reviewed
                   produced results that benefited already mature segments of the ethanol
                   producing industry rather than developing new and innovative technologies in
                   the field of renewable energy. We attributed this to the fact that ARS research
                   projects followed a 5-year cycle, and that ARS’ annual review process does
                   not evaluate the continued importance or relevance of ongoing research in
                   terms of outside factors such as changing economic conditions. In addition,
                   ARS does not have an effective process in place to determine whether the
                   research emphasizes current renewable energy priorities set by the
                   Administration or by Congress. As a result, ARS research projects that may
                   have addressed worthwhile purposes at the time of their inception may
                   become outdated during their 5-year cycles and thus might not produce the
                   most effective results in terms of developing new renewable energy sources.

                   Within USDA, ARS is the agency with primary responsibility for conducting
                   research into the development of renewable energy sources. Historically, this
                   has focused on the conversion of corn and other grains into ethanol as a way
                   to reduce the nation’s dependence on foreign oil and to make ethanol and
                   other types of energy, such as biodiesel, cost-competitive with petroleum. In
                   1999, ARS initiated the Bioenergy and Energy Alternatives National
                   Program. Its purpose was to reduce dependence on foreign oil, to improve the
                   environment by developing alternative energy sources, to increase the use of
                   agricultural feedstocks for biofuels, and to create jobs and economic activity
                   in the agricultural sector.

                   To implement this program, ARS officials met with representatives of its
                   agricultural “stakeholder” industries that are involved in the production of
                   biofuels and alternative energy, along with representatives from academia and
                   other USDA agencies and other Federal entities such as the Department of
                   Energy. Together, ARS and the stakeholders identified problems with
                   solutions that would most benefit the industry and the country. Following this
                   process, ARS initiated a number of research projects to address the identified
                   problems. Because the 1998 Farm Bill required that all research projects be
                   reviewed every 5 years, ARS created the Office of Scientific Quality Review
                   (OSQR) process, beginning in 1999, with research projects following a 5-year
                   cycle.



USDA/OIG-A/02601-0002-Ch                                                                   Page 3
                                     ARS officials also review the progress of ongoing research projects on an
                                     annual basis, using reports provided by the scientific teams who conduct the
                                     research. These reports provide information on significant accomplishments
                                     during the reporting year as well as the progress made in completing various
                                     milestones that were established in the proposals for each research project.
                                     The reports are also used to identify the research accomplishments that
                                     support ARS’ strategic plan as well as the agency’s annual budget requests to
                                     Congress.

                                     According to a National Program Staff (NPS) official, the reviews of the
                                     annual reports concentrate primarily on determining whether the research is
                                     resulting in documented accomplishments. These reviews do not include a
                                     determination of whether outside factors, such as changing technology or
                                     conditions within the industry, may have reduced the value of these
                                     accomplishments in meeting the nation’s growing needs for renewable
                                     energy. In addition, they do not consider whether the ongoing research
                                     continues to address current policies and priorities set by the Administration
                                     or by Congress.

                                     To improve the quality of its research programs overall, ARS instituted a new
                                     retrospective review process, in which a panel of outside experts is called in
                                     to review one of ARS’ national programs and provide recommendations and
                                     improvements for the next research cycle. The first of these reviews for the
                                     Bioenergy and Energy Alternatives National Program was conducted in June
                                     2007.

                                     In January 2005, shortly after the end of ARS’ first 5-year research cycle, 6
                                     Congress enacted the Energy Policy Act.3 This was the first Federal energy
                                     law to mandate the use of renewable fuel goals to reduce the nation’s
                                     dependence on foreign oil.4 In addition, it was the first to set goals for
                                     cellulosic biofuels production, calling for 1 billion gallons in annual
                                     production by 2015. The President’s 2006 Advanced Energy Initiative (AEI),
                                     which followed in February 2006, called upon Federal agencies to “foster the
                                     breakthrough technologies necessary to make cellulosic ethanol cost-
                                     competitive with corn ethanol by 2012.” Cellulosic ethanol can be produced
                                     from a wide variety of agricultural sources such as woodchips and
                                     switchgrass that would otherwise have only limited value or usefulness. The
                                     source materials for cellulosic ethanol come from agricultural sources,
                                     making ARS’ role crucial in identifying ways to meet the challenges set out
                                     by the President and Congress.




6
  This applies to research performed under the Bioenergy and Energy Alternatives National Program only. Other research programs have different starting
and ending dates for their 5-year cycles.
USDA/OIG-A/02601-0002-Ch                                                                                                                     Page 4
                                      Of the 29 7 ARS biofuels projects that were ongoing during fiscal year 2006,
                                      we reviewed 7 projects being performed at 2 ARS research locations (see
                                      exhibit A). Together, these 2 locations accounted for 58 percent of ARS’
                                      $20.7 million in renewable energy research funding for that year. Of these
                                      seven, we found three that involved research into corn ethanol rather than
                                      newer and more promising areas such as cellulosic biomass. Results produced
                                      by this research, even if successful, could be of questionable value because of
                                      changes that have taken place within the ethanol industry. Work was still
                                      progressing on all three research projects at the time of our field work. On
                                      one of these projects, the agency proceeded with research even though its
                                      results would not be used for several years, in which time the corn ethanol
                                      industry’s needs might have continued to change. These are detailed below.

                                              Project 1935-41000-069, Aqueous Enzymatic Extraction of Corn Oil and
                                              Value Added Products from Corn Germ Produced In New Generation
                                              Dry Grind Ethanol Processes

                                              This project, which was initiated in 2004, expanded on the results of an
                                              earlier research project from the 1999-2004 cycle which developed a
                                              new process for ethanol wet-mill operators to use in extracting oil from
                                              corn germ without the need for a toxic solvent. The new project was
                                              intended to develop a comparable extraction process for dry-grind
                                              operators that, because they could not extract the oil, could only sell the
                                              corn germ to wet-mill operators at a lesser price so the oil could be
                                              extracted. It was expected that this would benefit the ethanol industry as
                                              a whole by allowing the next generation of dry-grind facilities to produce
                                              higher value co-products, including corn oil. This, in turn, would
                                              decrease the cost of producing ethanol, making it competitive with
                                              petroleum.

                                              However, in the interim, economic factors had brought about significant
                                              changes in the industry. The rising demand for ethanol and the resulting
                                              higher market prices allowed dry-grinding operations to proliferate even
                                              without ARS’ new extraction process. The number of dry-grind ethanol
                                              producers almost doubled between 2003 and 2007, when 104 of the
                                              131 ethanol producers nationwide (79 percent) were identified as dry-
                                              grind operations. ARS’ annual reviews, which concentrated on the
                                              completed milestones and the fact that the project was producing results,
                                              did not consider whether those results were still critical to advancing the
                                              development of renewable energy.




7
  ARS listed 29 biofuels projects in fiscal year 2006, but one of these was an actually an administrative account for salaries related to technology transfers
and another was a Congressionally-mandated corn ethanol program for which funds were specifically earmarked through legislation.
USDA/OIG-A/02601-0002-Ch                                                                                                                            Page 5
                                            Project 1935-41000-072, Economic Competitiveness of Renewable
                                            Fuels Derived from Grain and Related Biomass

                                            One of the four objectives for this project, which began in 2000, was to
                                            develop a process for treating corn with ammonia to facilitate removal of
                                            the hull and thereby lower the cost of conversion to ethanol. The process
                                            was demonstrated successfully on a small scale in 2003, so the agency
                                            decided to continue the research in the next cycle to increase the scale of
                                            the process. When ARS initiated new research in this area in the
                                            beginning of the next cycle (2004), the research concentrated on further
                                            development of the ammonia process, including the construction of a
                                            pilot plant-scale corn ammoniation device. However, the expansion of
                                            the ethanol market had occurred as early as 2003 and resulted in a
                                            rapidly maturing industry. Therefore, its need for such research from
                                            public funds began to decline. By 2004, when ARS officials made the
                                            decision to continue work in this area, we believe that the agency’s
                                            resources could have been more effectively used in areas other than corn
                                            ethanol.

                                            Project 1935-41000-070, Enzyme-Based Technologies for Milling
                                            Grains and Producing Biobased Products and Fuels

                                            One of the goals of this project, initiated in 2002, was to develop a
                                            process using enzymes rather than sulfites in the wet milling process and
                                            adapt the same process for the dry grind process of converting corn to
                                            ethanol. Significant results were obtained, including the creation of an
                                            enzymatic wet-milling process model that was tested in a Malaysian corn
                                            milling plant in August of 2005, and a negotiation of a commercial
                                            license for this technology.

                                            The results produced by this research are, in general, those anticipated by
                                            ARS. However, they will only benefit the corn industry if used in the
                                            new construction of wet mill plants or if existing plants are adapted at
                                            additional cost. In addition, this research primarily aids the existing corn
                                            ethanol industry, so the benefits of this research would be of little
                                            significance in meeting the goals of the 2005 Energy Act or the AEI of
                                            2006.

                                      ARS’ first retrospective review by a panel of outside experts in June
                                      2007 was generally supportive of the agency’s research efforts on renewable
                                      energy. However, its report 8 also concluded that the corn ethanol industry is
                                      now viable on its own and that little or no continued investment of public
                                      research funds is justified. The report also concluded that cellulosic ethanol

8
    Assessment Panel Report, issued in August 2007
USDA/OIG-A/02601-0002-Ch                                                                                         Page 6
                   merits greater attention and research investment than it has yet received from
                   ARS. Reviews such as these, which are not limited to evaluating internal
                   benchmarks, could be valuable tools to ARS in evaluating the merit of
                   ongoing research projects. This is particularly true if they are performed on a
                   more frequent, preferably annual, basis.

                   ARS was already performing research related to cellulosic biomass at the
                   time the AEI was issued in February 2006. Much of the research in our
                   review, performed during 2006, was either directly or indirectly related to
                   cellulosic biomass. However, the results of our review revealed that at the
                   same time, ARS continued to conduct research into areas such as corn ethanol
                   which had been superseded by more promising avenues of research and were
                   unlikely to produce the results outlined in the President’s AEI. ARS’ existing
                   annual review process does not evaluate ongoing projects for their continued
                   relevance to updated priorities such as the AEI. Thus, the agency has
                   continued with the research projects that were ongoing when the AEI was
                   issued and is only now beginning the process of preparing for the next 5-year
                   research cycle. Any resources committed to ongoing projects that do not
                   target critical areas of research would not be redirected into new projects until
                   2009, or 3 years after the President issued the AEI. This late start reduces the
                   potential effectiveness of the new research in meeting the 2012 timeframe
                   identified by the President. Although ARS may be devoting even more of its
                   resources to the areas highlighted in the AEI by 2009, unforeseen conditions
                   could arise between then and the end of the cycle in 2014 that would again
                   call upon agency officials to make changes in the direction of its renewable
                   energy research during the course of a 5-year cycle.

                   ARS officials stated that much of their research into “mature” areas such as
                   corn ethanol is related to identifying profitable uses for the byproducts of the
                   ethanol production process, which are essential because they reduce the cost
                   of ethanol. They noted that market factors are not yet driving the industry to
                   perform this kind of research, indicating it should still be performed by ARS.
                   However, this is not reflected in the conclusions reached in the
                   2007 retrospective review. In addition, the examples we note in our report
                   were primarily directed toward improving the production processes
                   themselves rather than to identify marketable uses for byproducts.

                   With the emphasis on cellulosic research as outlined in the AEI, we believe it
                   is incumbent upon ARS, with its unique competencies for performing
                   agricultural research, to be as responsive as possible to new policies and
                   priorities set by the Administration and by Congress. In addition, agency
                   officials need to ensure that their research dollars and scientific resources are
                   targeted toward the most productive areas in terms of developing renewable
                   energy resources and to be flexible in addressing emerging issues and
                   objectives. As a result, we believe that ARS needs to implement review
USDA/OIG-A/02601-0002-Ch                                                                     Page 7
                       processes to ensure that its research projects are as effective as possible in
                       achieving the energy goals of the Administration and the Department.

Recommendation 1 Establish a process to review all research projects on a periodic basis, and to
                 evaluate their continued relevancy and productivity in terms of meeting
                 departmental and Administration energy goals.

Agency Response        The ARS response dated April 28, 2008, states that this fiscal year the agency
                       will revise the ARS form 421, Annual Report Form, to solicit more explicit
                       reports on each project’s progress toward national program goals. It further
                       states that this progress will be assessed by the National Program Leaders.

OIG Position           Although we concur with agency officials’ proposal to use the annual
                       reporting process to address the recommendation, the response does not state
                       what additional information will be collected under the revised form, or what
                       guidelines will be provided for its evaluation. As noted in the finding, we
                       believe that to be effective the review process would need to consider factors
                       that are not currently included. To reach a management decision, ARS
                       officials need to provide a response that addresses these concerns.




Finding 2              Renewable Energy Research Activities Misreported

                       ARS did not accurately report renewable energy activities in accordance with
                       the guidelines provided by the Office of Budget and Program Analysis
                       (OBPA). This occurred because agency officials had not placed a sufficient
                       priority on identifying projects that met OBPA’s guidelines, and instead
                       reported only the 29 projects listed in agency records as being associated with
                       renewable energy. However, officials had not yet determined the reporting
                       eligibility of 26 additional projects identified by the agency’s NPS as
                       contributing to the AEI. As a result, the $20.7 million that ARS reported to
                       OBPA as being used to fund renewable energy research in fiscal year
                       2006 may need to be revised.

                       In 2006, on behalf of the USDA Energy Council, OBPA collected
                       information from ARS and other agencies on the extent to which program
                       funds were spent on energy-related programs and activities. To assist the
                       agencies in providing full and complete information, OBPA provided
                       guidance to assist the agencies in identifying the types of projects that were to
                       be reported. In response, ARS reported to OBPA the 29 research projects
                       under its Program Code 026, Biofuels, with total expenditures of
                       $20.7 million in FY 2006.


USDA/OIG-A/02601-0002-Ch                                                                        Page 8
                      However, we found that agency officials had made their report to OBPA
                      without first making an accurate identification of those projects that qualified
                      for inclusion in the report. Based on OBPA guidance, we found that the NPS
                      had previously compiled another list of research projects that had been
                      identified as contributing to the President’s AEI. This list of 26 projects had
                      not yet been reviewed and approved by responsible agency officials, and thus
                      had not been used when developing the report to OBPA. ARS officials stated
                      that these were not included in the report to OBPA as renewable energy
                      research activities because they had not made it a priority to identify and code
                      research projects based on the new guidance provided by OBPA in 2006. At
                      the time of our audit, officials had still not verified that all of these projects
                      should be included in the OBPA reports. As a result, some of these may have
                      met the OBPA guidelines and thus been eligible for inclusion.

                      In order to assure accurate reporting of this information, ARS officials need
                      to implement the necessary processes for the agency to timely and accurately
                      respond to OBPA or other Departmental requests for information of this type.

Recommendation 2 Develop and implement procedures for reporting renewable energy activities
                 using the appropriate guidelines.

Agency Response       ARS officials stated that the agency is working with OBPA to address this
                      issue and to ascertain that all bioenergy programs are being reported in
                      accordance with the new definitions and example activities provided by
                      OBPA. They also stated that a comprehensive list of research projects
                      contributing to ARS Bioenergy and Energy Alternatives Research was
                      provided to OBPA in February 2008. The agency is in the process of making
                      necessary corrections to its research project coding to address future budget
                      reporting.

OIG Position          We concur with the actions being undertaken by ARS. However, to reach a
                      management decision, ARS officials need to provide information indicating
                      the timeframes that ARS procedures will be developed to incorporate the new
                      definitions and examples provided by OBPA, and when research project
                      coding will be completed to address future budget reporting.




USDA/OIG-A/02601-0002-Ch                                                                        Page 9
Scope and Methodology
                                        We performed our audit at ARS’ National Office in Beltsville, Maryland, two
                                        Area offices, and two research centers located in Peoria, Illinois, and
                                        Wyndmoor, Pennsylvania. These two centers accounted for 13 of the 29 ARS
                                        biofuels research projects ongoing in fiscal year 2006. We judgmentally 9
                                        selected three of five projects administered by the Wyndmoor research center
                                        and four of eight projects administered by the Peoria research center. We
                                        conducted fieldwork from April through September 2007. Our review
                                        concentrated on 2006 operations and included prior year activities of selected
                                        projects as necessary.

                                        We conducted this performance audit in accordance with generally accepted
                                        Government Auditing Standards. Those standards require that we plan and
                                        perform the audit to obtain sufficient, appropriate evidence to provide a
                                        reasonable basis for our findings and conclusions based on our audit
                                        objectives. We believe that the evidence obtained provides a reasonable basis
                                        for our findings and conclusions based on our audit objectives.

                                        At ARS Headquarters, we interviewed NPS and other officials responsible for
                                        renewable energy/biofuels research. We evaluated ARS policies and
                                        procedures related to the selection, approval, and monitoring of renewable
                                        energy research. We also interviewed officials and evaluated procedures in
                                        place to prevent the duplication of work between multiple research projects.
                                        We reviewed Scientific Quality Panel reviews to evaluate their adequacy and
                                        ARS’ response. We reviewed and evaluated the annual progress reports
                                        submitted for the seven sampled projects.

                                        At the two area offices and research centers, we interviewed area office
                                        directors and research leaders. We reviewed the judgmental sample of
                                        projects to ensure that they were related to renewable energy and addressed
                                        the areas of research called for by recent legislation and the President’s AEI
                                        of 2006. As part of this, we reviewed project proposals and their documented
                                        objectives and methodology and interviewed research leaders to obtain a
                                        sufficient understanding of these proposals to make our conclusions about
                                        each project. We also reviewed the process for cooperative agreement
                                        approval and determined whether the agreements associated with our sampled
                                        projects contributed to renewable energy research.




9
    We based selection of area offices and projects on research projects with highest renewable energy dollar funding.
USDA/OIG-A/02601-0002-Ch                                                                                                 Page 10
Exhibit A – AUDIT LOCATIONS VISITED AND PROJECTS REVIEWED
                                                                                         Exhibit A – Page 1 of 1



                                   PROJECT                                                     BIOFUELS
      LOCATION                                             PROJECT TITLE
                                   NUMBER                                                      FUNDING
ARS
Headquarters
Beltsville,
Maryland
Midwest Area                  3620-41000-118   Industrially Robust Enzymes and                    $1,880,708
Office                                         Microorganisms for Production of Sugars
and Midwest                                    and Ethanol from Agricultural Biomass
Center for
National
Agricultural
Utilization
Research Peoria,
Illinois 10
                              3620-41000-121   Microbial Catalysts to Produce Fuel Ethanol        $1,362,172
                                               and Value Added Products
                              3620-41000-122   Cost-Effective Bioprocess Technologies for         $1,362,172
                                               Production of Biofuels from Lignocellulosic
                                               Biomass
                              3620-41000-124   Improving the Performance of Alternative           $1,529,628
                                               Fuels and Co-Products from Vegetable Oils
North Atlantic                1935-41000-069   Aqueous Enzymatic Extraction of Corn Oil             $836,596
Area Office and                                and Value-Added Products from Corn Germ
North Atlantic                                 Produced in New Generation Dry-Grind
Area Eastern                                   Ethanol Processes
Regional
Research Center
Wyndmoor,
Pennsylvania
                              1935-41000-070   Enzyme-Based Technologies for Milling                $872,720
                                               Grains and Producing Biobased Products
                                               and Fuels
                              1935-41000-072   Economic Competitiveness of Renewable              $2,263,634
                                               Fuels Derived from Grains and Related
                                               Biomass


10
     Co-located with ARS Research Center
USDA/OIG-A/02601-0002-Ch                                                                              Page 11
Exhibit B – AGENCY RESPONSE
                              Exhibit B – Page 1 of 2




USDA/OIG-A/02601-0002-Ch                   Page 12
Exhibit B – AGENCY RESPONSE
                              Exhibit B – Page 2 of 2




USDA/OIG-A/02601-0002-Ch                   Page 13
